GR-80-98-035
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Kickapoo Tribe of Oklahoma Police Department 
 
GR-80-98-035
September 17, 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Kickapoo Tribe of Oklahoma Police Department. The
Kickapoo Tribe of Oklahoma received a grant of $53,482 under the Funding Accelerated for
Smaller Towns (FAST) program to hire one additional officer for 3 years. A second grant
for an additional $259,584 was awarded under the Universal Hiring Program (UHP) to hire
four more officers. The purpose of the additional officers was to enhance community
policing efforts.

We found the following weakness with regard to meeting grant conditions:

The Kickapoo Tribe of Oklahoma was allowed a reduction in force from four to two
      locally-funded positions in order to avoid supplanting; however, only one locally-funded
      position was retained. We question $36,413 for the unfilled supplanted position.


The FAST grant award was overfunded by $5,559 and the UHP grant was overfunded by $3,994
      because the cost of fringe benefits were overestimated.


The primary duties performed by the officers funded under both grants consisted of
      patrol duty, but the duties of two of the COPS-funded officers consisted of K-9 patrol and
      undercover drug surveillance. Those activities are a major program change from the grant
      applications.


The Kickapoo Tribe of Oklahoma did not submit all of their Financial Status Reports
      timely.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix I.
#####